                       Audit of Unemployment and Workers
                              Compensation Charges
                          by the Detroit Public Schools
                                 Detroit, Michigan




                                 FINAL AUDIT REPORT




                                Audit Control Number A05-90005
                                        February 1999




Our mission is to promote the efficient                      U.S. Department of Education
and effective use of taxpayer dollars                       Office of Inspector General
in support of American education                            Chicago, IL
Statements that management practices need improvement, as well as other
 conclusions and recommendations in this report, represent the opinions of
  the Office of Inspector General. Determination of corrective action to be
taken will be made by appropriate Department of Education officials. This
 report may be released to members of the press and general public under
                       the Freedom of Information Act.
                                                                                  February 2, 1999

MEMORANDUM
TO:            Gerald N. Tirozzi
               Assistant Secretary
               for Elementary and Secondary Education



FROM:          Richard J. Dowd
               Regional Inspector General
               for Audit, Region V

SUBJECT:       FINAL AUDIT REPORT
               Audit of Unemployment and Workers Compensation Charges
               by the Detroit Public Schools, Detroit, Michigan
               ED Audit Control Number A05-90005

Attached is the final audit report of Detroit Public Schools’ unemployment and workers
compensation charges to Federal programs. In accordance with the Department’s Audit
Resolution Directive, you have been designated as the action official responsible for the
resolution of the findings and recommendations in this report.

If you have any questions or wish to discuss the contents of this report, please contact me at 312-
886-6503. Please refer to the above audit control number in all correspondence relating to this
report.



Attachment
                                                                                 February 2, 1999
Dr. Eddie L. Green
General Superintendent of Schools
Detroit Public Schools
5057 Woodward Avenue
Detroit, MI 48202


Dear Dr. Green:

This AUDIT REPORT presents the results of our review of unemployment and workers
compensation charges to Federal programs.

AUDIT RESULTS

The Detroit Public Schools [DPS] does not annually calculate the unemployment and workers
compensation portion of its fringe benefit rate because it does not have a formal policy requiring
the annual calculation. If DPS does not calculate a new rate annually, it could overcharge the
Federal programs for unemployment and workers compensation costs.

Office of Management and Budget [OMB] Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments, “Attachment A-General Principles for Determining Allowable
Costs,” defines a cost as reasonable if, in its nature and amount, it does not exceed that which
would be incurred by a prudent person under the circumstances prevailing at the time the
decision was made to incur the cost. In addition, when determining reasonableness, the cost
principles state consideration should be given to the restraints or requirements imposed by such
factors as sound business practices; arms length bargaining; Federal, State, and other laws and
regulations; and terms and conditions of the Federal award.

Circular A-87, “Attachment B-Selected Items of Cost,” defines fringe benefits as allowances and
services provided in addition to regular salaries and wages. Workers compensation and
unemployment costs are allowable and shall be allocated in a manner consistent with the pattern
of benefits attributable to the individuals or groups of employees whose salaries and wages are
chargeable to such Federal awards and other activities. In addition, fringe benefits are allowable
to the extent that the benefits are reasonable.

We believe sound business practices dictate that reasonable costs should be estimated using
historical experience and reasonable assumptions. When historical data show large fluctuations
from year to year, a sound business practice would dictate annual calculations of the fringe
benefit rates.
DPS last calculated new unemployment and workers compensation fringe benefit rates using
1994-95 award year data. An analysis of the unemployment costs disclosed large fluctuating
costs ranging from a 183 percent increase in 1995-96 and a 9.89 percent increase in 1996-97 to a
58 percent decrease in 1997-98. In addition, an analysis of the workers compensation costs for
1995-96, 1996-97, and 1997-98 disclosed actual costs were 13 to 16 percent higher than the
1994-95 costs used to calculate the rate. As a result, DPS undercharged the Federal programs for
unemployment and workers compensation costs during the three year period. During our on-site
field work, DPS was recalculating its unemployment and workers compensation rates using the
1997-98 costs. If it did not recalculate new rates using the lower costs, DPS could overcharge
Federal programs in the future.

In a written response to our finding point sheet, DPS agreed with the finding. It admits that the
calculation of fringe benefits has not been done consistently during the past four years. However,
it said DPS has developed a procedure for annually calculating the fringe benefit rate and a policy
describing the methodology used for the calculation. DPS’s comments are attached to the
report.

Recommendation

We recommend that DPS implement the procedures it says it developed for annually calculating
the fringe benefit rate used to charge Federal programs.

BACKGROUND

The U.S. Department of Education [ED], Office of Elementary and Secondary Education,
administers the programs established by the Elementary and Secondary Education Act, as
amended, and the Improving America’s Schools Act. These programs provide financial
assistance and opportunities for local and state education agencies and other institutions to
support services for children to acquire the knowledge and skills contained in the state content
standards and to meet the state performance standards developed for all children. ED provides
funds to state education agencies to carry out their responsibilities with respect to local education
agencies. DPS participated in 14 Federal programs and was awarded $116,760,806 during the
1997-98 award year, 11 programs funded through the Michigan Department of Education,
Michigan Job Commissions, and Wayne County Intermediate School District, and 3 programs
funded directly by ED.

AUDIT SCOPE AND METHODOLOGY

The purpose of our audit was to determine if DPS charged Federally funded education programs
an equitable share of unemployment and workers compensation insurance premiums. Our audit
covered the period July 1, 1997 through June 30, 1998. However, we reviewed prior years’ costs
to determine if the rates used were equitable. We performed field work at:

ó      Arthur Andersen, CPA in Detroit, Michigan from October 19-20, 1998.

ó      PricewaterhouseCoopers, CPA in Detroit, Michigan from October 21-22, 1998.


                                               Page 2
ó      DPS in Detroit, Michigan from November 16-20, 1998 and November 30, 1998 through
       December 4, 1998.

To accomplish our purpose, we:

ó      Performed a preliminary review and assessment of management controls and accounting
       controls related to the administration of the unemployment and workers compensation
       programs.

ó      Reviewed and flowcharted policies and procedures for the unemployment and workers
       compensation process and personnel responsibilities.

ó      Reviewed and analyzed A-133 audit reports, management reports, and supporting
       working papers, fringe benefit rates, unemployment and workers compensation rate
       calculations, accounting records and spreadsheets, and State funding reports.

ó      Reviewed an organizational chart, newspaper clippings, Internet information, contracts
       with third party entities, DPS reports, and various unemployment and workers
       compensation forms.

ó      Interviewed 13 DPS officials and employees.

ó      Recalculated selected monthly fringe benefits charged to 14 Federally funded programs.

We conducted our audit in accordance with government auditing standards appropriate to the
scope of review described above.

STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we made an assessment of DPS’s management control structure, policies,
procedures, and practices applicable to the scope of the audit. The purpose of our assessment
was to determine the level of control risk; that is, the risk that material errors, irregularities, or
illegal acts may occur. The control risk assessment was performed to assist us in determining the
nature, extent, and timing of substantive tests needed to accomplish our audit purpose and
objectives.

To make the assessment, we identified and classified the significant management controls into
the following categories:

ó      Calculating fringe benefit rates

ó      Obtaining payroll data to allocate unemployment and workers compensation charges

ó      Calculating the charges

ó      Recording the charges



                                               Page 3
ó      Requesting Federal funds

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the control structure. However,
our assessment disclosed a weakness specifically related to the area of annually calculating the
unemployment and workers compensation fringe benefit rates. This weakness is discussed in the
"AUDIT RESULTS" section of this report.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on the audit:

               Gerald N. Tirozzi, Assistant Secretary
               U.S. Department of Education
               Office of Elementary and Secondary Education
               Federal Office Building 6, Suite 3W300
               400 Maryland Avenue, S.W.
               Washington, D.C. 20202-6100

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, receipt of your comments within 35 days would be greatly appreciated.

In accordance with the Freedom of Information Act (Public Law 90-23), reports issued to the
Department’s grantees and contractors are made available, if requested, to members of the press
and the general public to the extent information contained therein is not subject to exemptions in
the Act.

                                                       Sincerely,




                                                       Richard J. Dowd
                                                       Regional Inspector General
                                                       for Audit - Region V




                                              Page 4
Attachment
                                         REPORT DISTRIBUTION LIST
                                                                                                                         No. of
                                                                                                                         Copies
Auditee (Original)


Action Official
Gerald N. Tirozzi
Assistant Secretary for Elementary and Secondary Education
Office of Elementary and Secondary Education
U. S. Department of Education . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


Other ED Offices
David Frank, Office of Public Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Secretary’s Regional Representative, Region V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


ED-OIG
     Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

          Assistant Inspector General for Audit . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

          Assistant Inspector General for Investigation . . . . . . . . . . . . . . . . . . . Electronic Copy

          Assistant Inspector Generals for Operations . . . . . . . . . . . Electronic Copies (1 Each)

          Director, Advisory and Assistance, State and Local . . . . . . . . . . . . . . Electronic Copy

          Director, Planning, Analysis, and Management Service . . . . . . . . . . . Electronic Copy

          Regional Inspector General for Investigation . . . . . . . . . . . . . . . . . . . Electronic Copy

          Regional Inspectors General for Audit . . . . . . . . . . . . . . . . Electronic Copies (1 Each)

          Region V Audit Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copies (2)
